APPENDIX A1-A3
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
Order Affirming the District Court’s Judgment
HAYNES V CHAPMAN
No. 20-1221
Dated-April 20, 2021
(3-pages)

NOT RECOMMENDED FOR PUBLICATION
No. 20-1221

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

JERMAINE LATWONE HAYNES,

Apr 20, 2021
DEBORAH S. HUNT, Clerk

)
)
)

Petitioner-Appellant,

)
)
)
)

v.

WILLIS CHAPMAN, Warden,

ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF
MICHIGAN

)
)

Respondent-Appellee.

ORDER

Before: GUY, SILER, and GIBBONS, Circuit Judges.

Jermaine Latwone Haynes, a pro se Michigan prisoner, appeals from the district court’s
judgment dismissing his petition for a writ of habeas corpus filed under 28 U.S.C. § 2254. This
case has been referred to a panel of the court that, upon examination, unanimously agrees that oral
argument is not needed. See Fed. R. App. P. 34(a).
In 2014, a Michigan jury convicted Haynes of two counts of assault with intent to commit
murder, one count of felon in possession of a firearm, and one count of possession of a firearm
during the commission of a felony. The trial court sentenced Haynes to thirty to fifty years of
imprisonment for the assault-with-intent-to-commit-murder convictions, a concurrent ten to fifty
years for the felon-in-possession conviction, and a consecutive two-year term of imprisonment for
the felony-firearm conviction. The Michigan Court of Appeals affirmed his convictions, People
v. Haynes, No. 320409, 2015 WL 2412359 (Mich. Ct. App. May 19, 2015), and the Michigan .
Supreme Court denied permission to appeal further, People v. Haynes, 871 N.W.2d 191, 191-92
(Mich. 2015) (mem.).

No, 204221
-2In 2016, Haynes filed his § 2254'petition in the district court, alleging: (1) insufficient
evidence to support his assault-with-intent-to-commit-murder convictions; (2) prosecutorial
misconduct; (3) ineffective assistance of counsel; and (4) denial of transcripts on appeal. The
district court dismissed Haynes’s petition as meritless. Haynes v. Campbell, No. 16-cv-14371j
2020 WL 532397 (E.D. Mich. Feb. 3, 2020); On appeal, this court granted Haynes a certificate of
appealability for his claims, that his trial counsel provided ineffective assistance by failing to
investigate and present self-defense and mitigating evidence.

,

• This court reviews de novo a district court’s dismissal of a § 2254(d) petition but reviews
the court’s factual findings for clear error. See Englandv. Hart, 970 F.3d 698,706 (6th Cir. 2020),
cert: denied, 2021 WL 1072313 (U.S. Mar. 22, 2021) (No. 20-991). Federal habeas corpus guards
against extreme malfunctions in-state criminal justice systems rather than acting as a substitute for
ordinary error correction through appeal. Greene v. Fisher, 565 U.S. 34, 38 (2011); Harrington v.
Richter, 562 U.S. 86, 102-03 (2011). Under § 2254(d), the district court shall not grant a habeas
petition with respect to any claim that was adjudicated on the merits in the state courts unless the
adjudication resulted in a decision that:

(1) was contrary to, or involved an unreasonable

; application of, clearly established federal law; or (2) was based on an unreasonable determination
of the facts in light of the evidence presented to the state courts.
Haynes argues that his counsel was ineffective in representing him. In order to demonstrate
ineffective assistance of counsel, the defendant must show that: (1) counsel’s performance-was
deficient; and (2) this deficient performance prejudiced his defense. Strickland v.. Washington,
466 U.S. 668, 687 (1984); Tackett v. Trierweiler, 956 F.3d 358, 373 (6th Cir. 2020). To establish
this prejudice, counsel’s errors must have been so serious as to deprive the defendant of a trial that
was fair and reliable. Strickland, 466 U.S. at 687; Tackett, 956 F.3d at 373.
. Haynes first contends that his counsel was ineffective because he failed to pursue a strategy
of self-defense and present evidence in support of that strategy. This evidence included: (l).text
messages sent by Melrose Williams to Haynes; (2) text messages that Haynes sent to his brother;
(3) two witnesses, Anthony Gaskins and Estelle Burnett, who allegedly would have testified to

No. 20-1221
-3-

violence they experienced that was related to the events underlying Haynes’s convictions; and
(4) police and hospital records that would have supported Gaskins s and Burnett s potential
testimony. Haynes maintains that this evidence would have shown that he feared for. his life
leading up to his confrontation with the victims and that hearted in self-defense. The Michigan
Court of Appeals'rejected this argument. Haynes, 2015 WL 2412359, at *3-6.
The Michigan Court of Appeals’ opinion was a reasonable application of Strickland. The
alleged evidence relied on by Haynes was never presented to the state courts, and the only
indication of its existence is a self-serving affidavit from Haynes. In it, Haynes averred that he
told his counsel about text messages from Melrose Williams, sister of one of the victims, in which
she allegedly warned Haynes that her brother was seeking to do him harm. Haynes also alleges
that his counsel did not seek text messages that Haynes sent to his brother, in which Haynes
expressed fear of the police. Haynes maintains that these messages would have countered the
prosecutor’s insinuation that Haynes was not the victim in the attack because he failed to call the
police. Haynes also contends that counsel should have called Gaskins, who recently had been shot
in the leg, and Burnett, whose home was the target of gunfire. Haynes believes that their testimony
would have explained his “state of mind” at the time of the incident and supported a self-defense
strategy.
Even if Haynes’s allegations are accepted as true, this evidence was inconsistent with his
trial testimony.. He testified that he did not know the victims before the day of the shootings.
While he had a disagreement with their friend the previous day, he believed that everything had
been resolved at that time. Even when one of the victims allegedly approached him the following
day, Haynes did not indicate that he was concerned for his safety. Consequently, any evidence
that Haynes feared for his life or acted in self-defense contradicted his trial testimony.
:

Despite Haynes’s testimony, counsel arguably could have pursued an alternative strategy

of self-defense and relied on the evidence cited-by Haynes. However, this strategy still was
contrary to the testimony of the victims and other witnesses, who identified Haynes as the
aggressor: In order to establish prejudice from counsel’s allegedly deficient performance, Haynes

No.- 20-1221
-4must demonstrate a reasonable probability exists that his jury would have had a reasonable doubt
about his guilt. See Strickland,- 466 U.S. at 695; Harrington v. Richter, 562 U.S. 86, 112 (2011)
(“The likelihood of a different result must be substantial, not just conceivable.”). The evidence
cited by Haynes, even if it exists; does not rise to this level: Even if this evidence provided a basis
for a self-defense strategy, it does not show a “substantial” likelihood that the jury would have
acquitted Haynes in light of the other testimony presented at trial. Cullen v. Pinholster, 563 U.S.'
170, 202 (2011). Therefore, the state court could reasonably conclude that Haynes was not
prejudiced by his counsel’s failure to pursue a self-defense strategy.
Haynes next argues that counsel was ineffective for not presenting evidence of mitigating
circumstances during his sentencing, but the Michigan Court of Appeals’ rejection of this
argument,/fayrt&y, 2015 WL 2412359, at *7, was a reasonable application of Strickland. Although
a defendant has the right to the effective assistance of counsel during noncapital sentencing
proceedings, Lafler v. Cooper, 566 U.S. 156, 165 (2012), Haynes has not shown that he was
prejudiced by any allegedly deficient performance of his counsel. Haynes maintains that counsel
should have submitted evidence of his abusive and violent childhood, his intense grief over the
loss of a family member, and the possibility that he suffered from a mental defect. But Haynes
gave a lengthy statement at sentencing and could have presented his evidence at that time, but he
failed to do so. Further, Haynes has not submitted any evidence supporting this claim, and his
description of the evidence is conclusory and unsupported by facts. Consequently, it is insufficient
to establish that he suffered the required prejudice. See Rule 2(c)(2) of the Rules Governing § 2254
Cases; Mayle v. Felix, 545 U.S. 644, 655-56 (2005).
For his last ineffective-assistance-of-counsel claim, Haynes argues that his counsel should
have investigated his mental health history and sought psychological testing. The Michigan Court
of Appeals reasonably rejected this claim. Haynes, 2015 WL 2412359, at *7. Haynes submits
evidence that he previously had been prescribed psychotropic medication and that psychological
evaluations diagnosed him as suffering from psychotic and anxiety disorders and substance
dependence. Despite this mental health background, Haynes has not demonstrated any manner in

No. 20-1221
-5which he was prejudiced by counsel’s alleged failure to investigate it further. Haynes does not
maintain that any. mental health issues would have provided a defense to his crimes, and he presents
no evidence that he was incompetent at the time of his trial. Haynes argues that this evidence
would haye allowed the jury to know that he “was .hypersensitive to the. surrounding
circumstances,” but he does not demonstrate that it was reasonably probable his jury would have
reached a different result due to this evidence. See Strickland, 466 U.S. at 694. Therefore, the
Michigan Court of Appeals’ rejection of this claim was a reasonable application of Strickland.
Accordingly, we AFFIRM the district court’s judgment.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

*■>

APPENDIX B1 - B9
UNITED STATES DISTRICT COURT FOR THE EASTERN DISTRICT OF
MICHIGAN, SOUTHERN DIVISION
Opinion and Order (l) Denying Petition for Writ of Habeas Corpus,
(2) Denying A Certificate of Appealability, and (3) Granting Permission
to Appeal In Forma Pauperis
HAYNES v CAMPBELL
Case No. 16"cv14371
Dated- February 3, 2020
(9-pages)

Up' LexisNexis’
Date and Time: Saturday, June 12, 2021 1:19:00 PM CDT
Job Number: 146005973

Document (1)
1 .Havnes v. Campbell. 2020 U.S. Dist. LEXIS 16904
Client/Matter: -NoneSearch Terms: 2020 U.S. dist. lexis 16904
Search Type: Natural Language
Narrowed by:
Content Type
Cases

Narrowed by
Sources: Sources

LexisNexis] About LexisNexis | Privacy Policy | Terms & Conditions | Copyright ©2021 LexisNexis

❖ Positive
As of: June 12, 2021 6:19 PM Z

Haynes v. Campbell
United States District Court for the Eastern District of Michigan, Southern Division
February 3, 2020, Decided; February 3, 2020, Filed
Case No. 16-cv-14371
Reporter
2020 U.S. Dist. LEXIS 16904 *; 2020 WL 532397
JERMAINE LATWONE HAYNES, Petitioner, v.
SHERMAN CAMPBELL,1 WARDEN, Respondent.
Subsequent Histoiy: Affirmed by Haynes v. Chapman,
2021 U.S. Add. LEXIS 11675 (6th Cir. Mich.. Apr. 20.

2021)

'

Prior History: Haynes y. Haas. 2019 U.S. Dist. LEXIS
112433 (E.D. Mich.. July 8. 2019)

Core Terms
ineffective, shooting, self-defense, Appeals, trial.
counsel, credibility, habeas relief, certificate, sentencing,
witnesses, fired, argues, impeach, shot, gun, clearly
established federal law, in forma pauperis, defense
counsel, habeas corpus, circumstances, felony assault,
writ petition, gunshots, messages, lesser, gon,
instruction of a jury, intent to kill, direct appeal, direct
review
Counsel: [*1] Jermaine Latwone Haynes, Petitioner,
Pro se, MACOMB CORRECTIONAL FACILITY, NEW
HAVEN, Ml.
For Randall Haas, Respondent: Andrea M. ChristensenBrown, John S. Pallas, Michigan Department of Attorney
General, Lansing, Ml; Christopher M. Allen, Michigan
Attorney General, Lansing, Ml.
Judges: MATTHEW F. LEITMAN, UNITED STATES
DISTRICT JUDGE.

OPINION AND ORDER M) DENYING PETITION FOR
WRIT OF HABEAS CORPUS (ECF No. 1). (2)
DENYING A CERTIFICATE OF APPEALABILITY.
AND f3) GRANTING PERMISSION TO APPEAL IN
FORMA PAUPERIS
Petitioner Jermaine Latwone Haynes is a state prisoner
in the custody of the Michigan Department of
Corrections. Haynes filed a pro se petition for a writ of
habeas corpus under 28 U.S.C. 6 2254 on December
14, 2016. (See Pet., ECF No. 1.) In the petition, Haynes
challenges his state-court convictions for two counts of
assault with intent to commit murder, Mich. Comp. Law
8 750.83) felon in possession of a firearm, Mich. Como.
Law 8 750.224f. and possession of a firearm during the
commission of a felony ("felony-firearm"), Mich. Como.
Law 8 750.227b. (See id.) The convictions arose out of
Haynes' shooting of two men — David Owusu and Malik
Atkins.
Haynes raises four claims in his petition: (1) insufficient
evidence,
(2)
prosecutorial
misconduct,
(3)
ineffective [*2] assistance of trial counsel, and (4)
denial of transcripts on appeal. (See id.)
The Court has reviewed Haynes' claims and the record
and concludes that he is not entitled to federal habeas
relief. Accordingly, the Court will DENY his petition. The
Court will also DENY Haynes a certificate of
appealability but will GRANT him permission to appeal
in forma pauperis.

Opinion by: MATTHEW F. LEITMAN

Opinion

,1 The Court amends the caption to reflect the name of
Petitioner Haynes’.current warden. See Rule 2(a) of the Rules
Governing $ 2254 Cases. 28 U.S.C. foil. 62254.

I
The Michigan Court of Appeals summarized the
evidence against Haynes as follows:
The testimony presented at trial included that
defendant approached David Owusu before the
shooting and made a statement along the lines of:

Page 2 of 9
2020 U.S. Dist. LEXIS 16904, *2
"I want you and your friend to leave off the block or
I'm gon' shoot the both of ya'll," "Get off the street
or I’m gon' pop you and your friend," or “If you and
him don't get off our block, I'm gon' pop both of
ya'll." The testimony also indicated that, shortly
after defendant verbalized the threat, defendant
fired multiple gunshots at Owusu and Malik Atkins
using a black semi-automatic handgun while they
were riding their bikes down the street.
***
At trial, defendant testified to the events that
occurred on the day of the incident and the day
before the incident. . .
Further, defendant testified about hisf*3] state of
mind during the incident, indicating that he feared
for his life when he heard the gunshots and that he
was paranoid at the time of the incident.
***
i

Owusu and Atkins both testified that Atkins was
unarmed when the incident occurred and that
defendant fired gunshots at them as they were
riding away from the scene after defendant
• threatened Owusu. Even though defendant testified
that Atkins was armed and approached defendant
while reaching for a gun in his waistband
defendant never testified at trial that he was armed
that he needed to defend himself, or that he fired
the weapon at Owusu and Atkins. Instead,
defendant testified that he ran away when Atkins
pulled the gun out of his waistband and hid in an
abandoned house.
People v. Havnes. 2015 Mich. Add. LEXIS 1029. 2015
WL 2412359. at *1. *5, *6 (Mich. Ct. Add. Mav 19.

that [*4] his trial counsel was constitutionally ineffective.
He cited eight specific theories of ineffective assistance
in which trial counsel failed to
a. investigate text messages which would have
revealed Haynes’ state of mind,
b. call two witnesses identified by Haynes,
c. obtain hospital and police records which would
have supported Haynes' claim that he feared for his
life,
d. impeach the prosecution witness effectively with
the witness's inconsistent testimony,
e. present a self-defense theory or question
defendant about prior circumstances which
contributed to his behavior during the incident,
f. request a jury instruction on felonious assault,
g. introduce mitigating evidence at sentencing, or
h. pursue psychological testing or expert witnesses
regarding Haynes' state of mind and culpability.
The second issue that Haynes raised in his Standard 4
brief was that his appellate counsel failed to provide him
his trial and sentencing transcripts. Haynes argued that
this failure prevented Haynes, in his Standard 4 brief,
from citing facts in the record as required by the court
rules. (See EOF No 8-11, PagelDi672.)
The Michigan Court of Appeals . affirmed Haynes'
convictions. [*5] See Haynes, 2015 Mich. Add. LEXIS
1029, 2015 WL 2412359, at *7. The Michigan Supreme
Court thereafter denied leave to appeal. See People v.
Haynes, 498 Mich. 921, 871 N.W.2d 191 (Mich. 2015)?
_
_
In Haynes' timely-filed petition for writ of habeas corpus,
he raises the same issues that he argued on his direct
appeal.

2015).
After Haynes was convicted at trial, he raised four
issues on direct appeal. Through his appointed
appellate counsel, Haynes claimed that the evidence of
intent necessary to support a conviction of assault with
intent to murder was insufficient and that he was denied
a fair trial due to the prosecutor's improper vouching for
witnesses' credibility.
Haynes also raised two issues pro se through what is
known as a "Standard 4" brief.2 First, he asserted

2 Under Michigan law, criminal defendants may file a brief in
propria persona for claims that they seek to raise on appeal
where their appointed appellate counsel does not include
those grounds in their pleadings. See Standard 4, Michigan
Supreme Court Administrative Order No. 2004-6, 471 Mich c,

II
The Antiterrorism and Effective Death Penalty Act of
1996 ("AEDPA"), codified at 28 U.S.C. $ 2241 et sea..
sets forth the standard of review that federal courts must
use when considering habeas petitions brought by
prisoners challenging their state-court convictions.

cii (2004) (establishing minimum standards for criminal
defense appellate services); see also Ware v. Harry, 636 F.
Supp. 2d 574, 594 (E.D. Mich. 2008).
3 In the Michigan Supreme Court's order denying leave to
appeal, that court granted Haynes' motion to "add matters,"
permitting the inclusion of a competency evaluation report in
his application for leave to appeal. (See ECF No. 8-12,
PagelD.928.)

Page 3 of 9
2020 U.S. Dist. LEXIS 16904, *5
AEDPA provides in relevant part:
An application for a writ of habeas corpus on behalf
of a person in custody pursuant to the judgment of
a State court shall not be granted with respect to
- any claim that was adjudicated on the merits in
State court proceedings unless the adjudication of
the claim *
(1) resulted in.a.decision that was contrary to,
or involved an unreasonable application of,
■
. clearly established Federal law, as determined
by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an
unreasonable determination of the facts in light
of the evidence , presented in the State court
proceeding.
28 U.S.C. 6 2254(d).
"The question under AEDPA is not whether a federal
court believes the state court's determination was
incorrect but whether [*6] that determination was
unreasonable—a substantially higher threshold." Schriro
v. Landriaan. 550 U.S. 465. 473. 127 S. Ct. 1933. 167 L
Ed. 2d 836 (2007).

III

A
Haynes first argues that there was insufficient evidence
of his intent to kill Owusu and Atkins. The Michigan
Court of Appeals considered this claim on direct review
and rejected it:
The testimony presented at trial included that
defendant approached David Owusu before the
shooting and made a statement along the lines of:
"I want you and your friend to leave off the block or
I'm gon' shoot the both of ya'II," "Get off the street
■- or I'm gon' pop you and your friend," or "If you and
him don't get off our block, I'm gon’ pop both of
ya'II." The testimony also indicated that, shortly
after defendant verbalized the threat, defendant
fired multiple gunshots at Owusu and Malik Atkins
using a black semi-automatic handgun while they
were riding their bikes down the street. Given that
minimal circumstantial evidence was sufficient to
establish defendant's state of mind, defendant’s
.statement of intent prior to the shooting and
defendant's act of firing multiple gunshots at Owusu
and Atkins as they rode away from defendant,

provided sufficient circumstantial evidence from
which the jury could infer an actual intent to [*7]
kill. Although defendant's recollection of the incident
differed from' Owusu's and Atkins's accounts, and
aspects of 6 Owusu’s testimony conflicted with his
previous statements, this .Court wilt not interfere
with the trier of fact's role of determining the weight
of the evidence or the credibility of witnesses, and
all conflicts in the evidence must be, resolved in
favor of the prosecution. Thus, viewing the
evidence in the light most favorable \ to the
prosecution,
there was sufficient evidence
presented at trial for a reasonable jury to conclude
beyond a reasonable doubt that defendant fired the
gun at Owusu and Atkins with an intent to kill.
Havnes. 2015 Mich.. Add. LEXIS 1029. 2015 WL
2412359. at *1 (internal citations and -.punctuation
omitted),
Haynes .has not shown that the Michigan Court of
Appeals' decision was contrary to, or an unreasonable
application of, clearly established federal law. Haynes
argues that witness testimony that he shot at Owusu
and Atkins from several houses away indicated that he
only wanted to frighten them, and therefore his intent to
kill was not proven beyond a reasonable doubt. (See
Pet., ECF No. 1, Page.ID 46-47.) But under Jackson v.
Virginia. 443 U.S. 307. 99 S. Ct. 2781. 61 L. Ed. 2d 560
(1979). the inquiry is not
whether it [the reviewing court] believes that the
evidence at the trial [*8] established guilt beyond a
reasonable doubt . . . [but] whether, after, viewing
the evidence in the light most favorable to the
prosecution, any rational trier, of fact could have
found the essential elements of the crime beyond a
reasonable doubt.
/d. at 318-19 (citing Woodbv v. INS. 385 U.S. 276. 282,
87 S. Ct. 483. 17 L. Ed. 2d 362 (1966): Johnson v.
Louisiana. 406 U.S. 356. 362. 92 S. Ct 1620. 32 L. Ed.
2d 152 (1972)) (emphasis in original!
. .
Here, Owusu and Atkins testified that Haynes shot at
them multiple times as they rode their bikes away from
him. And evidence was presented at-trial that Haynes
had previously threatened to shoot Owusu and Atkins,
Under these circumstances, Haynes has not shown that
the Michigan Court of Appeals unreasonably concluded
that a rational trier of fact could find that Haynes
possessed an intent to kill. Haynes is-therefore not
entitled to federal habeas relief on this claim.

•*,

a

Page 4 of 9
2020 U.S. Dist, LEXIS 16904, *8
Accordingly, the prosecutor was permitted to
comment on Owusu's and Atkins's [*10] credibility
during her closing argument. Additionally, the
prosecutor's statement did not imply that she had
any special knowledge, outside of the evidence
presented at trial, regarding Owusu's and Atkins’s
truthfulness. Likewise, there is no indication that the
prosecutor put the prestige of the office behind a
personal belief of a witness' truthfulness. Thus, the
prosecutor's comments were not improper and
defendant's claim is without merit.

B
Haynes next argues that the prosecutor improperly
vouched for the credibility of the two complaining
witnesses.4 More specifically, Haynes argues that "[t]he
prosecutor, in a move to sway the jury, improperly
bolstered the testimony of the two complaining
witnesses by stating that he was, personally, very proud
of Owusu and Atkins and their truthful testimony (TT,
01/08/2014, 28)." (Pet., ECF No. 1, PagelD.48.5 )

i

The Michigan Court of [*9] Appeals considered this
claim on direct review and rejected it:
Allegations of prosecutorial misconduct are
considered on a case-by-case basis, and the
reviewing court must consider the prosecutor's
remarks in context. A prosecutor cannot vouch for
the credibility of his witnesses to the effect that he
has some special knowledge concerning a witness'
truthfulness. However, prosecutors have discretion
on how to argue the facts and reasonable
inferences arising therefrom, and are not limited to
presenting their arguments in the blandest terms
possible." Additionally, prosecutorial arguments
regarding credibility are not improper when based
on the evidence, even if couched in terms of belief
or disbelief. A prosecutor may comment on his own
witnesses' credibility during closing argument,
especially when there is conflicting evidence and
the question of the defendant's guilt depends on
which witnesses the jury believes.
In light of defendant's conflicting account of the
incident, it is evident that the outcome of this case
depended on whether the jury believed Owusu's
and Atkins's testimony or defendant's testimony.

Havnes. 2015 Mich. Add. LEXIS. 1029. 2015 WL
2412359. at *2 (internal citations and punctuation
omitted).
Haynes has not shown that the Michigan Court of
Appeals’ decision was contrary to, or an unreasonable
application of, clearly established federal law. "A
prosecutor's improper comments will be held to violate
the Constitution only if they 'so infected the trial with
unfairness as to make the resulting conviction a denial
of due process .'".Parker v, Matthews. 567 U.S. 37, 45,
132 S. Ct. 2148. 183 L Ed. 2d 32 (2012) (quoting
Darden v. Wainwright, 477 U.S. 168. 181. 106 S. Ct
2464, 91 L. Ed. 2d 144 (1986)). The single comment
that Haynes identified comprised a sentence and a half
in the prosecutor's entire closing and rebuttal
arguments. During those arguments, the prosecutor
made other proper comments about how the jury should
assess the credibility of the witnesses. On this record,
the limited example of arguable vouching by the
prosecutor did not "so infect[] [*1i] the trial" as to deny
Haynes his right to due process. Haynes is therefore not
entitled to federal habeas relief on this claim.

C

4 Respondent argues that Haynes proceduralfy defaulted this
issue. Where analyzing the merits of a habeas claim
"presents] a more straightforward route for resolving [the]
petition," a court need not address the question of procedural
default. Bell v. Jackson. 379 F. Aoo'x 440. 443 (6th Cir. 2010)
(citing 28 U.S.C. $ 2254(b)(2)\ Lambrix v. Singletary. 520 U.S.
518. 525. 117 S. Ct. 1517. 137 L Ed. 2d 771 (1997)). The
Court chooses that route here.
s Haynes presented this argument in a brief before the
Michigan Supreme Court, which Haynes attached to his
petition. (See Pet., ECF No. 1, PagelD.48.) In the petition,
Haynes adopted the arguments that he presented to that court
on this issue. (See id., PagelD.9, directing the Court to his
Michigan Supreme Court brief).

Haynes next raises eight theories of ineffectiveness of
his trial counsel, all of which were adjudicated on the
merits and rejected by the state courts during his direct
appeal. None entitle him to habeas relief.

1
Claims of ineffective assistance of counsel are subject
to the two-prong standard described in Strickland v.
Washington, 466 U.S. 668. 104 S. Ct. 2052. 80 L Ed.
2d 674 (1984). First, a defendant must show that his
counsel's performance was deficient. See id. at 687.
"This requires showing that counsel made errors so

Page 5 of 9
2020 U.S. Dist. LEXIS 16904, *11
serious that counsel was not functioning as the 'counsel1
guaranteed the defendant by the Sixth Amendment.'’ Id.
Counsel is "strongly presumed to have rendered
adequate assistance and made all significant decisions
in the exercise of reasonable professional judgment." Id.
at 690. Second, a defendant must show that the
deficient performance prejudiced the defense such that
the defendant was denied a fair trial. The test for
prejudice is whether "there is a reasonable probability
that, but for counsel's unprofessional errors, the result of
the proceeding would have been different." Id. at 694.
On habeas review, the question is "not whether
counsel's actions were [*12] reasonable," but "whether
there is any reasonable argument that counsel satisfied
Strickland's deferential standard." Harrington v. Richter.
562 U.S. 86. 105. 131 S. Ct 770. 178 L Ed. 2d 624
(2011) ("The standards created by Strickland and §
2254(d) are both 'highly deferential,' and when the. two
apply in tandem, review is 'doubly' so.")

• At that point, Atkins- started walking towards
Haynes, and Haynes saw Atkins reach into his
(Atkins') waistband. Haynes believed that Atkins
was "about to shoot me or something because I
[saw] him reaching for a gun." (Id., PagelD.557.)
Then Atkins did pull a gun "all the way out," and
when Atkins did so, Haynes began "running." (Id.)
Haynes "started hearing shots" and he "kept
running." (Id.) Haynes ran to an abandoned house
and, while hiding out at that house, he was "scared"
and "paranoid." (Id., PagelD.558.)
• Haynes then received phone calls from people
who told Haynes that Adrian, Owusu, and Atkins
were trying to set Haynes up to be shot.
• Haynes' denied that he had shot Atkins and
Owusu with the intent to kill them. (Id.,
PagelD.561.)

3
2
In order to understand. Haynes' ineffective assistance
claims in context, it is helpful to review Haynes'
testimony at trial. He testified as follows:
• The.day before the shooting, he got.into a fight
with a young man named' Adrian. The fight related
to Adrian's use of Haynes' lawnmower.
• After the confrontation with Adrian, Adrian's father
came over to speak with Haynes. They had a
productive conversation, and when they were done
speaking, Haynes believed that "everything was
resolved, everything was fine between [him] and
Adrian after that point." (ECF No. 8-8, PagelD.554.)
• The next day, as Haynes was returning to his
house, he saw Owusu (whose name Haynes did
not know at the time), Adrian, and Atkins: Owusu
• was playing basketball nearby, and Adrian and
Atkins were sitting on the porch of Adrian's house.
• Owusu asked Haynes for a cigarette lighter, and
Haynes thought that that request was unusual
because Atkins had a lit cigarette (and [*13] thus
must have had a means to light it that he
presumably could have shared with Owusu).
• Even though Haynes believed that the request for
the lighter was "suspect," he did not think that
anything bad was about to happen. (Id.,
. PagelD.556.) Instead, he "didn't really pay [any]
attention" to Owusu and "just turned around" and
began heading into his house. (Id., PagelD.555.)

The majority of Haynes' theories of ineffective
assistance assert that his[*14] trial counsel failed to
present Haynes' theory that (1) he acted in self-defense
and (2) was "paranoid" and-in fear for his life at the time
of the incident.
More specifically, Haynes says that his trial counsel
failed to:
• Present the defense of self-defense at trial;
• Obtain text messages between Haynes and a
woman named Melrose Williams. Haynes says that
these messages would have shown that shown that
Owusu and his friends "were seeking out [Haynes]
with the intent to do him - harm." (ECF No. 1,
PagelD.55);
.
r
• Obtain text messages between Haynes and his
brother Frederick. Haynes says. that these
messages would have shown that he "felt his life
was in danger from the police." (Id., PagelD.57.)
• Call two neighbors of Haynes' as witnesses at
trial. Haynes says the witnesses could have
"justified 0 Haynes' reason for fearing for his life" at
the time of the incident. (Id., PagelD.58.);
• Obtain hospital and police records related to
incidents of violence at the homes of Haynes'
neighbors. Haynes says that this evidence would
have helped explain why Haynes was in fear for his
life at the time of the shooting. (See id., PagelD.5960.); and

I

Page 6 of 9
2020 U.S. Dist. LEXIS 16904, *14
• Request psychological testing of Haynes. Haynes
says[*15] that the testing could have explained
"why [Haynes] was hypersensitive" to the
circumstances surrounding the incident in question.
(Id., PagelD.67.)
The Michigan Court of Appeals considered each of
these claims on direct review and rejected them. That
court did so, in part, because it concluded that a selfdefense theory, or a theory that Haynes acted out
because he was afraid for his life, would have been
inconsistent with Haynes' own version of events that he
offered in his trial testimony:
Even though defendant asserts that he informed
defense counsel that he acted in self-defense, it is
not evident from the lower court record that
defendant actually notified defense counsel of this
defense or that defense counsel failed to
investigate a self-defense theory. More significantly,
the presentation of a theory of self-defense would
have been completely inconsistent with the
testimony of Owusu, Atkins, and defendant. Owusu
and Atkins both testified that Atkins was unarmed
when the incident occurred and that defendant fired
gunshots at them as they were riding away from the
scene after defendant threatened Owusu. Even
though defendant testified that Atkins was armed
and approached defendant [*16] while reaching for
a gun in his waistband, defendant never testified at
trial that he was armed, that he needed to defend
himself, or that he fired the weapon at Owusu and
Atkins. Instead, defendant testified that he ran away
when Atkins pulled the gun out of his waistband
and hid in an abandoned house. Although
defendant could have raised inconsistent defenses
at trial, in order to demonstrate that defense
counsel was ineffective, he must rebut the strong
presumption that defense counsel's decision to
defend defendant by repeatedly attacking the
credibility of Owusu and Atkins and offering
defendant's testimony as the accurate portrayal of
the incident was "sound trial strategy under the
circumstances.
Defendant
has
failed
to
demonstrate that a decision to forgo a theory of
self-defense that was wholly inconsistent with
defendant's testimony—and, in fact, would have
effectively impeached defendant's testimony—was
not sound trial strategy.
Havnes. 2015 Mich. Add. LEXIS 1029. 2015 WL
2412359. at *6 (internal citations and punctuation

omitted; first emphasis in original; second and third
emphasis added). See also 2015 Mich. Add. LEXIS
1029, [WL1 at *4 ("[Tjhere is no indication that the
content of the text messages [between Haynes and his
brother] .provided a substantial defense to[*17]
defendant's charges or were relevant to the theory of
the case presented by the defense at trial"); 2015 Mich.
Add. LEXIS 1029. fWLl at *5 ("|T]he details of the
alleged shooting at the home of [Haynes'] neighbor did
not have any tendency to make more or less probable a
fact of consequence to this action ... The documents ...
could not provide any additional information regarding
whether [Haynes] fired a weapon .... or whether [Haynes]
had an actual intent to kill"): 2015 Mich. Add. LEXIS
1029. fWLl at *7 ("[T]here is no indication in the record
that [Haynes'] purported mental illnesses prevented
from him either appreciating the wrongful nature of his
actions or conforming his conduct to the law under
either version of the incident offered at trial").6
Haynes has not shown that the Michigan Court of
Appeals' rejection of his ineffective assistance claims
related to his desire to present a defense of self-defense
and to present evidence that he was afraid for his life at
the time of the incident was contrary to, or an
unreasonable application of, clearly established federal
law. As that court correctly concluded, Haynes' own trial
testimony was inconsistent with the defense of selfdefense and the evidence of paranoia that Haynes says
his attorney should have [*18] presented.
First, Haynes did not testify at trial that he was in any
fear or that he was paranoid in the moments leading up
to the incident. Instead, he testified that he was not
concerned by his initial interaction with Owusu
(concerning the cigarette lighter request), that he turned
to walk away after that initial interaction, and that the
first time he felt paranoia was afterhe had been shot at.
Thus, evidence that Haynes supposedly felt paranoia
before the shooting would not have fit well with his own
testimony.
Second (and more importantly), Haynes' testimony was
not consistent with a defense of self-defense or with any
evidence attempting to justify a shooting by Haynes.

6 The Michigan Court of Appeals rejected each of the
individual ineffective assistance ■ claims referenced above
related to Haynes' desire to present a defense of self-defense
and his claim that he feared for his life at the time of the
shooting. See Havnes. 2015 Mich. Add. LEXIS 1029. 2015 WL
2412359. at ** 3-7. For the reasons stated above, Haynes has
not shown that any of these rulings were unreasonable.

Page 7 of 9
2020 U.S. Dist. LEXIS 16904, *18
That is because Haynes denied firing any shots and
because (as described immediately above) he denied
being in fear before the shooting. Indeed, Haynes said
that he was the target of shots, not the shooter. Thus,
evidence of self-defense would have undermined his
own testimony.
For all of these reasons, Haynes cannot show that his
attorney acted unreasonably in failing to present a
defense of self-defense and/or the other evidence
identified above concerning Haynes’ state of mind at the
time of the shooting. Haynes [*19] is therefore not
entitled to federal habeas relief related to these claims.

description of the shooter.-(See 1/7/2014 Trial Tr. ECF
No. 8-7, Page.ID 454-55, -459.) Counsel also raised
Owusu's
inconsistent testimony
during
closing
arguments. (See 1/8/2014 Trial Tr. at 35, ECF No. 8-8,
Page.ID 579.) Haynes is therefore not entitled to federal
habeas relief on this claim.

5
Haynes next argues that his trial counsel was ineffective
for failing to introduce mitigating circumstances at
sentencing. The Michigan Court of Appeals reviewed
this claim on direct appeal and rejected it:
Defendant also argues that his counsel was
ineffective because he failed to introduce mitigating
circumstances at his sentencing which may have
resulted in a lesser sentence. This claim is without
merit. Defendant provided a lengthy statement at
sentencing, during [*21] which he explained his
perspective on the incident, his belief that the
young men were waiting to rob him, his concerns
that his charges were intensified because of his
"bad history with the police in [his] neighborhood,"
and his belief that the jury should have received a
self-defense instruction. Thus, he had ample
opportunity to raise the "mitigating circumstances"
that he references in his Standard 4 brief without
the intercession of his attorney and has failed to
establish that his attorney’s decision fell below an
objective standard of reasonableness.

4
Next, Haynes asserts that his trial counsel failed to
impeach
Owusu, a
prosecution witness, with
inconsistent prior testimony. The Michigan Court of
Appeals considered this claim on direct review and
rejected it:
[Djefendant argues that his counsel failed to
effectively impeach Owusu. In his brief, defendant
identifies four statements that defense counsel
failed to utilize at trial in order to undermine
Owusu!s
credibility.
However,
contrary
to
defendant's arguments, the lower court record
indicates that defense counsel impeached Owusu's
testimony with his prior inconsistent statements and
emphasized the inconsistencies in Owusu's
testimony during his closing argument. Therefore,
defendant has failed to establish the factual
predicate of his claim. Further, the record shows
that defense counsel effectively = impeached
Owusu's testimony, but, despite defense counsel's
.efforts, the jury found Owusu's and Atkins's
testimony to be more credible than defendant's
testimony. The fact that defense counsel's strategy
may not have worked does not constitute ineffective
assistance of counsel.
Haynes. 2015 Mich: Add. LEXIS 1029, 2015 WL
2412359. at *5 (internal citations and punctuation [*20]
omitted).
Haynes has not shown that the Michigan Court of
Appeals' decision was contrary to, or an unreasonable
application of, clearly established federal law. Haynes'
.assertion in the petition that his trial counsel failed to
impeach Owusu is Counsel impeached Owusu with
respect to (1) Owusu's prior belied by the record,
statement to police that he did not see the gun that he
later described at trial and (2) discrepancies in Owusu's

Haynes, 2015 Mich. Add. LEXIS 1029, 2015 WL
2412359, at *6 (internal citations and punctuation
omitted).
Haynes has not shown that the Michigan Court of
Appeals' decision was contrary to, or an unreasonable
application of, clearly established federal law. Although
trial counsel's remarks at sentencing related to
mitigation were brief, counsel did tell the sentencing
court that Haynes was "not beyond rehabilitation" and
"has the love and support of his mother." (Sent. Tr., ECF
No. 21-2, Page.ID 993.) And as the state court
observed, Haynes also allocuted at length and thus had
the opportunity to raise any issues he felt lacking in
counsel's presentation. (See. id., Page.ID 994-996.)
Haynes [*22] is therefore not entitled to federal habeas
relief on this claim,

6

Page 8 of 9
2020 U.S. Dist. LEXIS 16904, *22
Haynes finally argues that his trial counsel was
ineffective when counsef failed to seek a jury instruction
for felonious assault as a lesser-included offense to
assault with intent to commit murder. The Michigan
Court of Appeals considered this argument on direct
review and rejected it:
Next, defendant argues that his counsel was
ineffective for failing to request a jury instruction on
felonious assault. However, MCL 768.32(1)
‘ precludes a jury instruction on an uncharged lesser
cognate offense. People v. Jones, 497 Mich. 155,
164, 860 N,W.2d 112: 497 Mich. 155. 860 NW2d
112 (2014). And felonious assault is a cognate
lesser offense of assault with intent to commit
murder. People v. Otterbridae. 477 Mich. 875. 721
N.W.2d 595 (2006). Accordingly, this claim is
without merit.
Havnes. 2015 Mich. Add. LEXIS 1029. 2015 WL
2412359. at *6.
Haynes has not shown that the Michigan Court of
Appeals' decision was contrary to, or an unreasonable
application of, clearly established federal law. Attorneys
are not ineffective under Strickland when they fail to
raise a frivolous argument or one that is futile. See, e.g.,
Holmes v. United States. 281 F. Add'x 475. 479 (6th Cir.
2008) (citing Maoes v. Covle. 171 F.3d 408. 427 (6th
Cir. 1999)). Here, under Michigan law, felonious assault
is a cognate lesser offense of assault with intent to
commit murder. See People v. Otterbridae. 477 Mich.
875. 721 N.W.2d 595 (Mich. 2006). And the governing
jury
instruction
on
lesser
offenses
prohibits
"consideration of cognate lesser offenses." [*23]
People v. Jones. 497 Mich. 155, 164. 860 N.W.2d 112
(2014). As a result, any request for the felonious assault
instruction would have failed. Haynes' trial counsel was
therefore not ineffective in not seeking the instruction,
and Haynes is not entitled to federal habeas relief on
this claim.

D
The final issue that Haynes raises in the Petition is that
he should have been permitted to file an amended
Standard 4 pro se brief with the Michigan Court of
Appeals because he was denied trial and sentencing
transcripts by his appointed appellate attorney. The
Michigan Court of Appeals did not address this issue
directly but it did deny Haynes' related motions to
remand and for an evidentiary hearing in which he

sought to establish an alternative testimonial record.
Haynes is not entitled to federal habeas relief on this
claim. Neither the Sixth Amendment nor the Due
Process Clause of the Fourteenth Amendment
guarantee a defendant's right to self-representation on
direct appeal from a criminal conviction. See Martinez v.
Coutt of Appeal of California. 528 U.S. 152. 161. 163.
120 S. Ct. 684, 145 L. Ed. 2d 597 (2000). Accordingly, a
defendant appealing a conviction is not constitutionally
entitled to submit a pro se appellate brief in addition to a
brief filed by appellate counsel. See McMeans v.
Briaano. 228 F.3d 674. 684 (6th Cir. 2000).
The State of Michigan may choose to permit defendants
to submit pro se briefs, see Martinez. 528 U.S. at 163.
as Standard 4 provides, but no part of the federal [*24]
constitution protects a defendant's right to do so.
Because Haynes had no constitutional right to file his
Standard 4 brief, the constitution mandates neither the
provision of transcripts for the purpose of drafting that
brief, nor the opportunity to file an amended brief.

E
In order to appeal the Court's decision, Haynes must
obtain a certificate of appealability, which requires a
substantial showing of the denial of a constitutional
right. See 28 U.S.C. S 2253(c)(2). To demonstrate this
denial, an applicant must show that reasonable jurists
could debate whether the petition should have been
resolved in a different manner, or that the issues
presented are adequate to deserve encouragement to
proceed further. See Slack v. McDaniel. 529 U.S. 473.
483-84. 120 S. Ct. 1595. 146 L. Ed. 2d 542 (2000). A
federal district court may grant or deny a certificate of
appealability when the court issues a ruling on the
habeas petition. See Castro v. United States. 310 F.3d
900. 901 (6th Cir. 2002).
Here, jurists of reason would not debate the Court's
conclusion that Haynes has failed to demonstrate
entitlement to federal habeas relief with respect to any
of his claims because they are all devoid of merit.
Therefore, the Court DENIES Haynes a certificate of
appealability.
Although this Court declines to issue Haynes a
certificate of appealability, the standard [*25] for
granting an application for leave to proceed in forma
pauperis on appeal is not as strict as the standard for
certificates of appealability. See Foster v. Ludwick, 208

■s-

Page 9 of 9
2020 U.S. Dist. LEXIS 16904, *25
F.Sudd.2d 750, 764 (E,D. Mich. 2002). While a
certificate of appealability requires a substantial showing
of the denial of a constitutional right, a court may grant
in forma pauperis status on appeal if it finds that an
appeal is being taken in good faith. See id. at 764-65;
28 U.S.C. $ 1915(a)(3)-. Fed. R. App. 24 (a). Although
jurists of reason would not debate this Court's resolution
of Haynes' claims, an appeal could be taken in good
faith. Therefore, Haynes may proceed in forma pauperis
on appeal.

forma pauperis is GRANTED.
Approved:
Is/ Matthew F. Leitman
Matthew F. Leitman
United States District Judge
Dated: February 3, 2020
Flint, Michigan

V
Accordingly, for the reasons stated above, the Court (1)
DENIES WITH PREJUDICE the petition for a writ of
habeas corpus (ECF No. 1), (2) DENIES Haynes a
certificate of appealability, and (3) GRANTS Haynes
permission to appeal in forma pauperis.
IT IS SO ORDERED.
/s/ Matthew F. Leitman
MATTHEW F. LEITMAN
UNITED STATES DISTRICT JUDGE
Dated: February 3, 2020
I hereby certify that a copy of the foregoing document
was served upon the parties and/or counsel of record on
February 3, 2020, by electronic means and/or ordinary
mail.
/s/ Holly A. Monda
Case Manager
(810) 341-9764

JUDGMENT
The above entitled action came before the Court on a
petition [*26] for a writ of habeas corpus. In accordance
with the Opinion and Order entered on February 3,
2020:
IT IS ORDERED AND ADJUDGED that the petition for
writ of habeas corpus is DENIED.
IT IS FURTHER ORDERED that a certificate of
appealability is DENIED.
IT IS FURTHER ORDERED that permission to appeal in

End of Document

> :•

APPENDIX Cl
MICHIGAN SUPREME COURT
Opinion and Order Denying Leave to Appeal the May 19, 2015 Judgment of the
Michigan Court of Appeals
PEOPLE OF THE STATE OF MICHIGAN v JERMAINE LATWONE HAYNES
S.C. No. 151877
Dated' November 24, 2015
(l-page)

ft

■

LexisNexis*

Date and Time: Saturday, June 12, 2021 1:20:00 PM CDT
Job Number: 146006001

Document (1)
1. People v. Havnes. 871 N.W.2d 191
Client/Matter: -None498 Mich. 921:
Search Type: Natural Language
Narrowed by:
Content Type
Cases

Narrowed by
custom: Custom

LexisNexis'l About LexisNexis | Privacy Policy | Terms & Conditions | Copyright © 2021 LexisNexis

*

o
Neutral
As of: June 12, 2021 6:20 PM Z
People v. Haynes
Supreme Court of Michigan
November 24, 2015, Decided
SC: 151877
Reporter
871 N.W.2d 191 *; 2015 Mich. LEXIS 2711 **; 498 Mich. 921
PEOPLE OF THE STATE OF MICHIGAN, PlaintiffAppellee, v JERMAINE LATWONE HAYNES a/k/a
TONY KENDRICK, Defendant-Appellant.
Prior History: [**1]COA: 320409. Wayne CC: 13008812-FC.

People v. Havnes. 2015 Mich. Add. LEXIS 1029 (Mich.
Ct. Add.. Mav 19. 2015)
Judges: Robert P. Young, Jr., Chief Justice. Stephen J.
Markman, Mary Beth Kelly, Brian K. Zahra, Bridget M.
McCormack, David F. Viviano, Richard H. Bernstein,
Justices.

Opinion

[*191] Order
On order of the Court, the motion for miscellaneous
relief is GRANTED. The application for leave to appeal
the May 19, 2015 judgment of the Court of Appeals is
considered, and it is DENIED, because we [*192] are
not persuaded that the questions presented should be
reviewed by this Court.

End of Document

1

APPENDIX D1 - D6

'•

MICHIGAN COURT OF APPEALS
Per Curiam Opinion and Order Affirming Petitioner’s Convictions
PEOPLE OF THE STATE OF MICHIGAN v JERMAINE LATWONE HAYNES
No. 320409
Dated- May 19, 2015
(6-pages)

A
1

|jp LexisNexis*
Date and Time: Saturday, June 12, 2021 1:21:00 PM CDT
Job Number: 146006017

Document (1)
1. People v. Havnes. 2015 Mich. Add. LEXIS 1029
Client/Matter: -NoneSearch Terms: 2015 Mich. app. lexis 1029
Search Type: Natural Language
Narrowed by:
Content Type
Cases

Narrowed by
Sources: Sources

|(p LexisNexis'l About LexisNexis | Privacy Policy | Terms & Conditions | Copyright © 2021 LexisNexis

r

o

Neutral
As of: June 12, 2021 6:21 PM Z

People v. Haynes
Court of Appeals of Michigan
May 19, 2015, Decided
No. 320409 .
Reporter
2015 Mich. App. LEXIS 1029 *
PEOPLE OF THE STATE OF MICHIGAN, PlaintiffAppellee, v JERMAINE LATWONE HAYNES, also
known as TONY KENDRICK, Defendant-Appellant. .

counts of assault with intent to commit murder, MCL
750.83. felon in possession of a firearm, MCL 750.224f.
and possession of a firearm during the commission of a
felony ("felony-firearm"), MCL 750.227b. We affirm.

Notice: THIS IS AN' UNPUBLISHED OPINION. IN

I. SUFFICIENCY OF THE EVIDENCE

ACCORDANCE WITH
MICHIGAN
COURT OF
APPEALS RULES, UNPUBLISHED OPINIONS ARE
NOT . PRECEDENTIALLY BINDING UNDER THE
RULES OF STARE DECISIS.
Subsequent History: Leave to appeal denied by,
Motion granted by People v. Haynes, 498 Mich. 921,
871 N.W.2d 191, 2015 Mich. LEXIS 2711 (Nov. 24,
2015)
Habeas corpus proceeding at Havnesv. Haas. 2019
U.S. Dist. LEXIS 112433 ( E.D. Mich.. July 8. 2019)
Prior History: [*1] Wayne Circuit Court. LC No. 13008812-FC.

Core Terms
defense counsel, text message, ineffective, assault,
witnesses, defendant argues, credibility, fired, kill,
ineffective assistance of counsel, self-defense,
investigate, substantial defense, lower court,
prosecutorial, documents, closing argument, trial.
strategy, no indication, state of mind, circumstances;
impeached, gunshots, insanity, probable, shooting,
asserts, murder, gun
Judges: Before: TALBOT, C.J., and CAVANAGH and.
METER, JJ.

Opinion
Per Curiam.
Defendant appeals as of right his jury convictions of two

Defendant .first argues that there was insufficient
evidence presented at trial for a rational jury to find him
guilty of assault with intent to commit murder beyond a
reasonable doubt. We disagree.
This Court reviews de novo a defendant’s challenge to
the sufficiency of the evidence. People v Harverson. 291
Mich Add 171. 177:804 NW2d 757 (2010). We review
the evidence in the light most favorable to the
prosecution to determine whether a rational trier of fact
could find the essential elements proved beyond a
reasonable doubt. Id. at 175.
Under MCL 750.83. there are three elements of assault
with intent to commit murder: "(1) an assault, (2) with an
actual intent to kill, (3) which, if successful, would make
the killing murder." People v Ericksen, 288 Mich Add
192. 195-196: 793 NW2d 120 (2010) (internal quotation
marks and citation omitted). On appeal, defendant only
claims that the evidence did not establish he had an
actual intent to kill.
Circumstantial evidence [*2] and reasonable inferences
arising from the evidence can provide sufficient
evidence to establish the elements of a crime. People v
Dunigan, 299 Mich Add 579. 582: 831 NW2d 243
(2013). "This Court has consistently observed that
[bjecause of the difficulty of proving an actor’s state of
mind, minimal circumstantial evidence is sufficient."
Ericksen. 288 Mich Add at 196-197 (internal quotation
marks and citation omitted; alteration in original). An
intent to kill can be inferred from the use of a dangerous
weapon. People v Dumas. 454 Mich 390. 403: 563
NW2d 31 (1997) (opinion by RILEY, J.). Additionally, in
determining whether a defendant had an intent to kill,

Page 2 of 6
2015 Mich. App. LEXIS 1029, *2
the jury may consider:
the nature of the defendant's acts constituting the
assault; the temper or disposition of mind with
which they were apparently performed, whether the
instrument and means used were naturally adapted
to produce death, his conduct and declarations
prior to, at the time, and after the assault, and all
other circumstances calculated to throw light upon
the intention with which the assault was made.
\Peoole v Tavlor. 422 Mich 554. 568: 375 NW2d 1
(1985) (internal quotation marks and citation
omitted).]
The testimony presented at trial included that defendant
approached David Owusu before the shooting and
made a statement along the lines of: "I want you and
your friend to leave off the block or I'm gon' shoot the
both [*3] of ya'II," "Get off the street or I’m gon' pop you
and your friend," or "If you and him don't get off our
block, I'm gon’ pop both of ya'II." The testimony also
indicated that, shortly after defendant verbalized the
threat, defendant fired multiple gunshots at Owusu and
Malik Atkins using a black semi-automatic handgun
while they were riding their bikes down the street. Given
that "minimal circumstantial evidence [was] sufficient" to
establish defendant’s state of mind, Ericksen. 288 Mich
Add at 196-197, defendant's statement of intent prior to
the shooting and defendant's act of firing multiple
gunshots at Owusu and Atkins as they rode away from
defendant, provided sufficient circumstantial evidence
from which the jury could infer an actual intent to kill.
Although defendant's recollection of the incident differed
from Owusu's and Atkins's accounts, and aspects of
Owusu’s testimony conflicted with his previous
statements, ”[t]his Court will not interfere with the trier of
fact’s role of determining the weight of the evidence or
the credibility of witnesses," People v Kanaan, 278 Mich
Add 594. 619: 751 NW2d 57 (2008), and "all conflicts in
the evidence must be resolved in favor of the
prosecution," People v Fletcher. 260 Mich Add 531. 562:
679 NW2d 127 (2004). Thus, viewing the evidence in
the light most favorable to the prosecution, there [*4]
was sufficient evidence presented at trial for a
reasonable jury to conclude beyond a reasonable doubt
that defendant fired the gun at Owusu and Atkins with
an intent to kill.
II. PROSECUTORIAL ERROR
Next, defendant argues that his rights to a fair trial and
due process were violated by the prosecutor's
comments indicating that she was proud of Owusu and
Atkins and the testimony they provided at trial. We

disagree.
A defendant must contemporaneously object and
request a curative instruction to preserve a claim of
prosecutorial misconduct. People v Bennett. 290 Mich
Add 465. 475: 802 NW2d 627 (2010). Accordingly,
"[rjeview of alleged prosecutorial misconduct is
precluded unless the defendant timely and specifically
objects, except when an objection could not have cured
the error, or a failure to review the issue would result in
a miscarriage of justice.” People v Unger. 278 Mich Add
210, 234-235; 749 NW2d 272 (2008). Defendant did not
object when the prosecutor commented on Owusu’s and
Atkins's testimony during her closing argument, so this
issue is* not preserved for' appeal. We review
unpreserved issues of prosecutorial misconduct for plain
error affecting substantial rights,. People v Carines, 460
Mich 750. 763: 597 NW2d 130 (1999).
The prosecutor stated the following during her closing
argument:
If you listened to the testimony of David Owusu and
Malik Atkins, it was just [*5] as consistent as two
people would be. Okay. They would be similar
enough but different enough because each of us
have a different perspective. They were located in
different places. They didn't add. They didn't
embellish. They just testified simply to what they
saw.
Frankly, I'm very proud of David Owusu and Malik
Atkins. I'm very proud of their conduct on August
22nd. I was very proud of their testimony, but that
they came here without fear. People have fear and
won't come forth. They told you we were a bit
nervous. They were honest, a bit nervous[,] but
they told truthfully what they saw and what they
heard on that day.
"[A]l!egations
of prosecutorial misconduct are
considered on a case-by-case basis, and the reviewing
court must consider the prosecutor’s remarks in
context." Bennett. 290 Mich Add at 475. A "prosecutor
cannot vouch for the credibility of his witnesses to the
effect that he has some special knowledge concerning a
witness' truthfulness."
Id.
at 476.
However,
"[prosecutors have discretion on how to argue the facts
and reasonable inferences arising therefrom, and are
not limited to presenting their arguments in the blandest
terms possible." Id. Additionally, "prosecutorial
arguments regarding credibility are not improper when
based [*6] on the evidence, even if couched in terms of
belief or disbelief." Unaer. 278 Mich Add at 240. "[A]

:«
Page 3 of 6
2015 Mich. App. LEXIS 1029, *6
prosecutor may comment on his own witnesses'
credibility during closing argument, especially when
there is conflicting evidence and the question of the
defendant's guilt depends on which witnesses the' jury
believes." People v Thomas. 260 Mich Add 450. 455:
678 NW2d 631 (2004).
In light of defendant's conflicting account of the incident,
it is evident that the outcome of this case depended on
whether the jury believed Owusu's and Atkins's
testimony or defendant's testimony. Accordingly, the
prosecutor was permitted to comment on Owusu's and
Atkins's credibility during her closing argument. See id.
Additionally, the prosecutor’s statement did not imply
that'she had any special knowledge, outside of the
evidence presented at trial, regarding Owusu's and
Atkins's truthfulness. See Bennett. 290 Mich Add at 476.
Likewise, there is no indication that "the prosecutor put
the prestige of the office behind a personal belief of a
witness' truthfulness." People v Bahoda. 448 Mich 261.
■277 n 26: 531 NW2d 659 {1995). Thus, the prosecutor’s
comments were not improper and defendant's claim is
without merit.
III. INEFFECTIVE ASSISTANCE OF COUNSEL
In his Standard 4 brief, defendant argues that he was
denied the. effective assistance of counsel based on
eight instances of defense [*7] counsel's allegedly
deficient performance. We disagree. Because this issue
is raised for the first time on appeal, it is unpreserved
and our review is for errors apparent on the record. See
People v Sabin (On Second Remandi. 242 Mich Add
656. 658-659: 620 NW2d 19 (2000).
To establish ineffectiveness of counsel, a defendant
generally must show that his counsel's performance fell
below an objective standard of reasonableness and
there is a reasonable probability that, but for counsel's
errors, the result of the proceedings would be different.
People v Lockett. 295 Mich Add 165. 187: 814 NW2d
295 {2012). Defendant bears a heavy burden of proving
ineffective assistance of counsel because there is a
strong presumption that defense counsel provided
adequate representation. People v Vaughn. 491 Mich
642. 670: 821 NW2d 288 (2012). Defendant also carries
the burden of establishing the factual basis of his claim.
People v Hoag. 460 Mich 1, 6; 594 NW2d 57 (1999).
This Court may not substitute its own judgment for that
of defense counsel or second-guess defense counsel
on matters of trial strategy, as defense counsel has
great discretion with respect to the trial tactics employed
while trying a case. People v Pickens. 446 Mich 298.

330: 521 NW2d 797 (1994).
A. FAILURE TO PRESENT EVIDENCE RELATED TO
TEXT MESSAGES EXCHANGED WITH MELROSE
WILLIAMS AND FREDERICK HAYNES '
Defendant first argues that his counsel failed to
investigate and present evidence related to text
messages exchanged by Melrose [*8] Williams and
defendant and Frederick Haynes and defendant, which
would have indicated "that the victim and his friends
were seeking out the [defendant with the intent to do
him harm" and that defendant believed "that'his life was
in danger from the police;"'
"Trial counsel is responsible for preparing, investigating,
and presenting all substantial defenses." People v
Chapo. 283 Mich Add 360. 371: 770 NW2d 68 (2009).
Choices "regarding what evidence to present and
whether to call or question witnesses are presumed to
be matters of trial strategy, which this Court will not
second-guess with the benefit of hindsight." People v
Dixon. 263 Mich Add 393. 398: 688 NW2d 308 (2004).
"[T]he failure to call witnesses only constitutes
ineffective assistance of counsel if it deprives the
defendant of a substantial defense," id., which is a
defense that may have affected the outcome of the trial,
Chaoo. 283-Mich Add at 371,
Defendant has failed to demonstrate that defense
counsel was ineffective for failing to investigate or
present text messages and related testimony from
Williams regarding the young men's intent to harm
defendant. There is no mention of Williams in the lower
court record or any indication that defendant received
text messages from Williams. Instead, defendant's own
testimony at trial indicated: he did not know Owusu or
Atkins before [*9] the day of the incident; he had an
altercation with Adrian regarding a lawn mower and
related name-calling the day before the incident; and he
received phone calls from "a lot of people" after Atkins
fired gunshots at him, which indicated that Adrian,
Owusu, and Atkins "tried to set [him] up." When the
prosecutor asked defendant on cross-examination who
called him after the incident, defendant only stated that
"[djifferent people that’s [sicj on the block" called him
and he could only identify "Tone" and "Shugey" by
name, expressly stating that no one else came to mind.
Defendant filed an affidavit with his Standard 4 brief on
appeal which indicates that he "informed [defense
counsel] of the existence of several text-messages from
one of the complainant's sister [sic], Mrs. Melrose
Williams, in which [he] was warned that her brother was

%
Page 4 of 6

I
2015 Mich. App. LEXIS 1029, *9
out with his friends seeking to do [him] and Anthony
Gaskins harm[.]" Clearly then defendant’s attorney was
aware of.that evidence and it must be presumed that it
was not offered at trial for strategic reasons which this
Court will not second-guess. See People v Pavne. 285
Mich Add 181. 190: 774 NW2d 714 (2009): Dixon. 263
Mich Add 393: 688 N.W.2d 3Q8. Thus, defendant has
failed to establish the factual predicate of his claim. See
Hoag. 460 Mich at 6.
And defense counsel was [*10] not ineffective for failing
to obtain and present the text messages that defendant
sent to Haynes regarding his fear of the police. It is not
apparent from the lower court record that the text
messages existed or. that defendant made defense
counsel aware of the text messages. As such,
defendant has failed to establish the factual predicate of
his claim. See Hoag. 460 Mich at 6. Moreover, even
assuming that the text messages existed, there is no
indication that failing to investigate or subpoena the text
messages fell below an objective standard of
reasonableness. See Vauohn. 491 Mich at 669. There is
no indication that the content of the text messages
provided a substantial defense to defendant's charges
or were relevant to the theory of the case presented by
the defense at trial. Additionally, as the prosecution
argues on appeal, it appears unlikely that the text
messages would have been admissible at trial given
their irrelevance to the events that gave rise to
defendant’s charges, see MRE 401 ("'Relevant
evidence' means evidence having any tendency to
make the existence of any fact that is of consequence to
the determination of the action more probable or less
probable than it would be without the evidence."), and
"[flailing to advance [*11] a meritless argument . . .
does not constitute ineffective assistance of counsel,"
Ericksen. 288 Mich Add at 201.
B. FAILURE TO CALL ANTHONY GASKINS AND
ESTELLE BURNETT AS. WITNESSES
Next, defendant argues that his counsel was ineffective
for failing to present Anthony Gaskins and Estelle
Burnett as witnesses, both of whom would have helped
the jury understand defendant's "state of mind" at the
time of the incident. In his brief, defendant asserts that
Gaskins would have testified regarding "the occurrences
of the days leading up to the day of the confrontation,"
including that he was a recent victim of gun violence
and had received the same text messages that
defendant received from Williams. According to
defendant, Burnett's testimony could have helped the
jury to understand defendant's state of mind because

her home was recently "the target of gunfire."
Similar to defendant's first claim, there is no mention of
Gaskins or Burnett in the lower court record. But as
defendant notes in his affidavit filed with his Standard 4
brief, he told his attorney about these two potential
witnesses and their anticipated testimony. Thus, again,
it must be presumed that this evidence was not offered
at trial for strategic reasons [*12] which this Court will
not second-guess. See Pavne. 285 Mich Add at 190:
Dixon. 263 Mich Add 393: 688 N.W.2d 308. Therefore,
defendant has failed to establish the factual predicate of
his claim. See Hoag. 460 Mich at 6.
However, even assuming, arguendo, that Gaskins and
Burnett would have testified as defendant asserts, and
that their testimony would have been relevant and
admissible at trial, defense counsel's failure to call them
as witnesses did not deprive defendant of a substantial
defense. Dixon. 263 Mich Add at 398. At trial, defendant
testified to the events that occurred on the day of the
incident and the day before the incident, and neither
Gaskins nor Burnett were present when the shooting
occurred. Further, defendant testified about his state of
mind during the incident, indicating that he feared for his
life when he heard the gunshots and that he was
paranoid at the time of the incident. Accordingly,
defense counsel's purported failure to call Gaskins and
Burnett as witnesses did not deprive defendant of a
substantial defense and defense counsel's performance
did not constitute ineffective assistance of counsel. See
id.
C. FAILURE TO OBTAIN HOSPITAL RECORDS AND
POLICE REPORTS
Next, defendant argues that his counsel was ineffective
because he failed to obtain hospital records and
police [*13] reports or other documents related to
Gaskins's and Burnett's potential testimony. Defendant
appears to argue that the hospital records related to
Gaskins's leg injuries, which were "severe enough to
warrant amputation of his leg," would have corroborated
the reasons why defendant feared for his life. Defendant
asserts that the police-related documents "could [have]
introduced to the jury the fact that [defendant’s] next
door neighbor's house had been shot up because the
perpetrators were under the impression that it was
[defendant's] residence."
First, apart from defendant's assertions in his Standard
4 brief, defendant has failed to establish the existence of
any hospital records and police reports containing the
information that he describes on appeal, and there is no

9

Page 5 of 6
2015 Mich. App. LEXIS 1029, '13
indication in' the lower court record of such
documentation. However, even if the documents exist, it
is unlikely that they would have been admissible. Only
relevant evidence is admissible. See MRE 402. The
details of Gaskins's leg amputation and the details of the
alleged shooting at the home of defendant's neighbor
did not have any tendency to make more or less
probable a fact of consequence to the action. See MRE
401. These documents [*14] were only, if at all,
peripherally related to any of the events that gave rise to
defendant's charges and could not provide any
additional information regarding whether defendant fired
a weapon at Owusu and Atkins or whether defendant
had an actual intent to kill Owusu and Atkins during the
incident. See People v Murphy (On Remand). 282 Mich
App 571. 580: 766 NW2d 303 (2009). Thus, defense
counsel was not ineffective by failing to obtain and
present the documents at trial.
D. FAILURE TO EFFECTIVELY IMPEACH OWUSU

'

Next, defendant argues that his counsel failed to
effectively impeach Owusu. In his brief, defendant
identifies four statements that defense counsel failed to
utilize at trial in order to undermine Owusu's credibility.
However, contrary to defendant's arguments, the lower
court record indicates that defense counsel impeached
Owusu's testimony with his prior inconsistent statements
and emphasized the inconsistencies in Owusu's
testimony during his closing argument. Therefore,
defendant has failed to establish the factual predicate of
his claim. See Hoaa. 460 Mich at 6. Further, the record
shows that defense counsel effectively impeached
Owusu's testimony, but, despite defense counsel’s
efforts, the jury found Owusu's and Atkins's testimony to
be more credible than[*15] defendant's testimony.
"The fact that defense counsel’s strategy may not have
worked does not constitute ineffective assistance of
counsel." People v Stewart (On Remand). 219 Mich Add
38. 42: 555 NW2d 715 (1996).
E. FAILURE TO PRESENT SELF-DEFENSE THEORY
Next, defendant argues that his counsel was ineffective
because he failed to ask defendant questions that would
have revealed to the jury that he fired the gun in selfdefense after Atkins approached him with a handgun.
Defendant attributes defense counsel's performance to
a lack of preparation.
As stated above, defense counsel was "responsible for
preparing, investigating, and presenting all substantial
defenses." Chapo. 283 Mich Add at 371. However,
"[wjhere there is a claim that counsel was ineffective for

failing to raise-a defense, the defendant must show that
he made a good-faith effort to'avail himself of the right
to present a particular defense and that the defense of
which he was deprived was substantial!n_re_Ayres^
239 Mich Ado 8. 22: 608 NW2d 132 (1999). Additionally,
the decision to argue one defense over another is
considered a matter of trial strategy. People v Hedelskv.
162 Mich Add 382. 387: 412 NW2d 746 (1987).
Even though defendant asserts that he informed
defense counsel that he acted in. self-defense, it is not
evident from the lower court record that defendant
actually notified defense counsel of this defense or that
defense [*16] counsel failed to investigate .a selfdefense theory. More significantly, the presentation of a
theory of self-defense would have been completely
inconsistent with the testimony of Owusu, Atkins, and
defendant. Owusu and Atkins both testified that Atkins
was unarmed when the incident occurred and that
defendant fired gunshots at them as they were riding
away from the scene after defendant threatened Owusu.
Even though defendant testified that Atkins was armed
and approached defendant while, reaching for a gun in
his waistband, defendant never testified at trial that he
was armed, that he needed to defend himself, or that he
fired the weapon- at Owusu and Atkins. Instead,
defendant testified that he ran away when Atkins pulled
the gun out of his waistband and hid in an abandoned
house. Although defendant could have raised
inconsistent defenses at trial, People v Lemons, 454
Mich 234. 245: 562 NW2d 447 (1997). in order to
demonstrate that defense counsel was ineffective, he
must rebut the strong presumption that defense
counsel's decision to defend defendant by repeatedly
attacking the'credibility of Owusu and Atkins and
offering defendant’s testimony as the accurate portrayal
of the incident was "sound trial strategy under the
circumstances." {*17) People v Toma. 462 Mich 281.
302: 613 NW2d 694 (2000). Defendant has failed to
demonstrate that a decision to forgo a theory of selfdefense that was wholly inconsistent with defendant's
testimony—and, in fact, would have effectively
impeached defendant's testimony—was not sound trial
strategy.
F. FAILURE TO REQUEST FELONIOUS ASSAULT
INSTRUCTION
Next, defendant argues that his counsel was ineffective
for failing to request a jury instruction on felonious
assault. However, MCL 768.32(1) precludes a jury
instruction on an uncharged lesser cognate offense.
People v Jones. 497 Mich 155. 164: 860 NW2d 112

f

L

*
Page 6 of 6
2015 Mich. App. LEXIS 1029, *17
(2014). And felonious assault is a cognate lesser
offense of assault with intent to commit murder. People
v Otterbridae. 477 Mich 875; 721 NW2d 595 (2006).
Accordingly, this claim is without merit..
•
G. FAILURE TO INTRODUCE MITIGATING
CIRCUMSTANCES AT SENTENCING
Defendant also argues that his counsel was ineffective
because he failed to introduce mitigating circumstances
at his sentencing which may have resulted in a lesser
sentence. This claim is without merit. Defendant
provided a lengthy statement at sentencing, during
which he explained his perspective on the incident, his
belief that the young men were waiting to rob him, his
concerns that his charges were intensified because of
his "bad history with the police in [his] neighborhood,"
and his belief that the [*18] jury should have received a
self-defense instruction. Thus, he had ample opportunity
to raise the "mitigating circumstances" that he
references in his Standard 4 brief without the
intercession of his attorney and has failed to establish
that his attorney's decision fell below an objective
standard of reasonableness. See Vaughn. 491 Mich at
669-671.
H. FAILURE TO SEEK PSYCHOLOGICAL TESTING.
OR CHALLENGE DEFENDANT'S SANITY
Finally, .defendant argues that his attorney was
ineffective for failing to request that psychological
testing be performed on him. Failing to investigate and
present a meritorious insanity defense can constitute
ineffective assistance of counsel. People v Newton. 179
Mich Add 484. 491: 446 NW2d 487 (1989). However,
even if this Court assumes that defendant was, in fact,
diagnosed with the mental conditions mentioned in his
Standard 4 brief, the record contains no evidence that
defendant was affected by symptoms of those
conditions at the time of. the incident. Additionally, to the
extent that defendant is arguing that he was entitled.to
an insanity defense, a defendant must show that he
"lack[ed] substantial capacity either to appreciate the
nature and quality or the wrongfulness of his or her
conduct or to conform his or her conduct .to the
requirements of the [*19] law" in order to establish an
affirmative defense of legal insanity. MCL 768.21a(1).
"Mental illness or having an intellectual disability does
not otherwise constitute a defense of legal insanity."
MCL 768.21a(1): see also People v Carpenter. 464
Mich 223, 237; 627 NW2d 276 (2001). Consequently,
defendant's diagnoses of paranoid schizophrenia and
PTSD would not have been sufficient to support a legal
insanity defense. And there is no indication in the record

• f

*

that defendant’s purported mental illnesses prevented
him from either appreciating the wrongful nature of his
actions or conforming his conduct to the-law under
either version of the incident offered at trial. Accordingly,
defendant has failed to establish that his counsel's
performance fell below an objective standard of
reasonableness and there is a reasonable probability
that, but for counsel's errors, the result of the
proceedings would be different. See Lockett. 295 Mich
Add at 187:
Affirmed.
Is/ Michael J. Talbot
Is/ Mark J. Cavanagh
/s/ Patrick M. Meter

Cud ol'Document

